T        estimony

            STATEMENT FOR THE RECORD
                   ELEANOR HILL
                INSPECTOR GENERAL
              DEPARTMENT OF DEFENSE
                    BEFORE THE
SUBCOMMITTEE ON READINESS AND MANAGEMENT SUPPORT
       SENATE COMMITTEE ON ARMED SERVICES
                        ON
            ACQUISITION REFORM IN THE
              DEPARTMENT OF DEFENSE


Report Number 99-117           Hearing Date: March 17, 1999




             Office of the Inspector General
                 Department of Defense
Mr. Chairman and Members of the Subcommittee:

     I appreciate the opportunity to share with you our
view on acquisition reform efforts at the Department of
Defense. At the outset, I want to emphasize that the
Office of the Inspector General (OIG) has for some time
been a strong supporter of acquisition reform. During this
past year, we have continued our efforts to help the
Department and Congress identify barriers to more efficient
acquisition practices, design new processes, and evaluate
the impact of the changes already in place.

OBSERVATIONS ON REFORM

     We are encouraged by the progress the Department is
making in some areas of the acquisition reform effort.
For example, we recently reported that DoD components         Report
implemented many initiatives to reduce acquisition lead-      No. 99-037
time. The changes have allowed DoD components to reduce
acquisition lead-time by an average of 14 percent with some
activities achieving a 50-percent reduction since our 1995
review. The reductions in lead-time reduce the amount of
inventory needed on the shelf or the time the warfighters
have to wait for a part.

     Acquisition reform initiatives such as promoting
electronic commerce and encouraging the use of commercial
purchasing practices are focused on expediting
procurements, cutting red tape, and reducing overhead
costs. However, much more needs to be done to ensure that
the DoD acquisition work force is capable of transitioning
to new practices and that those new practices include
reasonable controls to safeguard against the continuing
threat of procurement fraud and mismanagement. There have
been many positive acquisition reform initiatives.
However, except for acquisition lead time, we have not yet
seen significant across the board improvements in cycle
time and unit costs.

CHALLENGES IN THE OVERSIGHT OF ACQUISITION

     The Office of Inspector General has broad statutory
authority to conduct oversight within DoD, including the
area of acquisition. The sheer magnitude of the
acquisition program, however, makes effective oversight a
monumental challenge. In FY 1998, DoD purchased over
                                                              2


$131 billion of goods and services on over 250,000
contracts, grants, cooperative agreements, and “other
transactions.” Currently, DoD is administering over
$800 billion in open contracts. At the end of June 1998,
DoD had 79 major Defense Acquisition programs, valued at
over $674 billion, of which over half had yet to be
appropriated. In addition, there are hundreds of small
programs.

     The consolidations in the Defense industry are
reflected by the fact that the top three contractors for
DoD account for about 25 percent ($29 billion) of all
contracts over $25,000. The top 10 contractors for DoD
account for 37 percent ($43.5 billion) of all contracts.

     Because of the risks in acquisition, the Office of
Inspector General has historically given high priority, to
the extent our resources permit, to the oversight of
acquisition programs and functions. In the last year, we
issued 57 audit reports on acquisition issues. To augment
our audits, we are participating on Department process
action teams and working groups such as joint contracting,
commercial business environment training, and product
support. Our participation allows us to provide input
regarding management controls before new processes are
fielded. Also, procurement fraud remains the largest part
of the workload of the Defense Criminal Investigative
Service (DCIS), the criminal investigative arm of this
office. Over the past 5 fiscal years, DCIS cases related
to procurement have resulted in 948 convictions and
$1.1 billion in recoveries. We currently have over 800
open criminal cases on bribery, conflict of interest,
mischarging, product substitution, false claims, and other
procurement matters.

     I want to highlight some examples of our work in the
acquisition area.

SPARE PARTS AUDITS

     There are many challenges in buying spare parts in the
acquisition reform environment. Our review of spare parts
acquisitions has covered a sample of six corporate
contracts issued by the Defense Logistics Agency (DLA).
The DLA has about 43 corporate contracts for spare parts.
                                                              3


We have not reviewed spare parts purchases by the Services,
but we believe that the same purchasing challenges exist
across the Department.

     Last year, I testified before the Subcommittee on
Acquisition and Technology, Committee on Armed Services,
about two reports on spare parts pricing. The first report
showed that the DLA paid (for sole-source commercial spare        Report
parts) modestly discounted catalog prices that were               No. 98-064
significantly higher (average increase of about
280 percent) than previous cost-based prices. The second          Report
report showed that the sole-source prices for spare parts         No. 98-088
on a different contract, were 172 percent higher than the
competitive (breakout) prices previously paid by DoD for
the spare parts. DLA purchased commercial catalog and
noncommercial spare parts on a sole-source basis,
principally because those spare parts were mistakenly coded
by DLA as sole-source when inventory management
responsibility was transferred from the Air Force.

RESPONSE TO AUDITS

     In written responses to the first audit, the Under
Secretary of Defense for Acquisition and Technology and the
Director, DLA, agreed to take various actions. The Under
Secretary agreed that additional training and guidance were
needed relating to commercial items, but did not agree that
obtaining uncertified cost or pricing data or access to
contractor cost data was needed to establish price
reasonableness.

     In March 1998, the Under Secretary testified before
the Subcommittee on Acquisition and Technology, Committee
on Armed Services, about the spare parts issue. The Under
Secretary was asked whether draft commercial pricing
guidance (draft commercial pricing “Information Guide,”
dated February 1998) prepared by the Under Secretary’s
Acquisition Reform office was inconsistent with the
statutory directive that contracting officers require
contractors to provide information (other that certified
cost or pricing data) to the extent necessary to determine
the reasonableness of price. The Under Secretary stated,
“I do not agree that the guidance is inconsistent with the
existing statute. In implementing the statute, we made it
clear that one asks the offeror for information as the last
resort, after exhausting all other sources of pricing
information. However, we will make it clear in the final
                                                              4


guide that information may be obtained from the offeror if
needed to determine price reasonableness where sufficient
information cannot be obtained from other sources.” To
date, we have been unable to locate any place where the
Department has taken action to publish final guidance that
clearly confirms the right to seek such information if
necessary.

     The Defense Authorization Act for Fiscal Year 1999
included provisions requiring the Department to publish
guidance in the Federal Acquisition Regulation to help
contracting officers address the problems identified by the
audits last March. To date, the Office of the Under
Secretary of Defense (Acquisition and Technology) has not
yet issued the additional guidance required by the Act. We
were recently informed it would be months before this
guidance is published. The Authorization Act also tasked
the Department to develop procedures for unified management
of exempt commercial items, prompted by the reports that
DoD has multiple contracting offices and contracting
officers negotiating with the same contractors. On this
issue, I was informed that a working group was formed and
will initially meet on March 25. However, it may be months
before any new procedures are developed.

     In December 1997 in response to our first audit, DLA
awarded a new indefinite-delivery contract for 216 sole-
source commercial items. The contract will save, according
to DLA, about $83.8 million over a 6-year period. The
contract includes some of the items addressed in our first
audit report. The negotiations took 3 months for the
contract and were very difficult. The audit also
recommended that DLA negotiate a long-term contract for a
significantly larger number of noncommercial items (over
1,500 spare parts) with the aid of cost data. Although DLA
issued a sole-source solicitation to the contractor in
December 1997, as of December 1998, the contractor has
declined to offer prices or provide cost data. The
contractor is now claiming all the spare parts are
commercial items, thus making it difficult, if not
impossible, for DLA to negotiate fair and reasonable prices
for these sole-source spare parts. In response to the
second audit, DLA agreed to identify items that could be
broken out to other sources, obtain the manufacturing
drawings, and procure items competitively in the future.
                                                                5


RECENTLY COMPLETED AUDIT

     A third audit report on the commercial pricing of              Report
spare parts was issued in October 1998. The audit showed            No. 99-026
that DLA supply centers paid higher prices for commercial
spare parts when compared to previous noncommercial prices
for the same spare parts. The supply centers failed to
effectively implement buying and inventory management
practices designed to offset the higher commercial prices
and take advantage of the contractor’s capabilities. DLA
supply centers paid the contractor commercial prices for
spare parts which included costs for the contractor to
manage, stock, and deliver the items directly to users in
the field. However, instead of taking advantage of these
commercial services, the supply centers purchased large
quantities of parts for inventory and applied their full
cost recovery rates to manage, stock, and deliver the items
to users in the field. Duplication of costs to manage,
stock, and deliver the items increased customer costs by
about $3.2 million in FYs 1996 and 1997. Based only on the
data reviewed for FY 1997, we calculate that DLA supply
centers can reduce total ownership costs for their
customers by at least $12.5 million during FYs 1999 through
2004 if the corporate contract is effectively implemented
as intended. The DLA is working on correcting this
problem.

ONGOING SPARE PARTS AUDITS

     We currently are working on three additional audits
involving commercial and noncommercial pricing of spare
parts in the acquisition reform environment. Draft reports
on the first two audits will be issued in March 1999, with
the third report to follow. We are again identifying
problems in the purchasing of spare parts on sole-source
corporate contracts. Based on our work thus far, we
believe that the results will further confirm our belief
that access to accurate cost information is critical to the
best interests of DoD in sole-source procurements
situations.

SERVICE CONTRACTS

     DoD support service   contracting continues to be a
high-risk area for waste   and mismanagement. Support
services is an area that   has grown to $48 billion in
FY 1998 and has received   far less attention from senior DoD
                                                              6


acquisition officials than it deserves. During the past
year, we issued several reports on services contracting
that highlighted problems with the lack of competition,
potential conflicts of interest, and poor contract
administration.

     In March 1999, we issued a report that identified             Report
significant problems with the issuance of task orders by           No. 99-116
DoD components under multiple award contracts. Multiple
award contracting allows the Government to procure products
and services more quickly, using streamlined acquisition
procedures, while using the advantage of competition from
pre-qualified bidders to obtain the best prices. All
contractors qualified for the contracts are considered
technically capable of performing any task order that may
be awarded. DoD awarded 636 multiple award contracts from
FY 1995 through FY 1998. Each multiple award contract
could result in the issuance of numerous task orders. The
audit examined orders awarded under 50 multiple award
contracts with a total contract ceiling amount of
$2.6 billion. We found that contracting officers awarded
66 of 124 (53 percent) task orders for $87.6 million on a
sole-source basis without adequate justification for
denying other contractors a fair opportunity to be
considered. During the audit, we encountered discouraged
vendors who were afraid to challenge prospective awards
because of concern about future dealings with the same
contracting officer and program office. We recommended
that the Under Secretary of Defense for Acquisition and
Technology take several actions to increase competition in
the award of task orders for services under multiple award
contracts. Because of reported problems for this area, the
Office of Federal Procurement Policy has issued guidance
recently to stop program offices from designating preferred
vendors and set a goal that 90 percent of the task orders
should be competitive.

     We also issued a report that was critical of the             Report
continued use of a single contractor by the Defense Finance       No. 98-099
and Accounting Service and the Defense Logistics Agency for
contract reconciliation services. We found that DoD
officials did not adequately plan for contract
reconciliation services and took inappropriate actions that
allowed one contractor to be the sole provider of these
services for over 9 years without competition. From 1989
through 1998, the contractor received four sole-source
contracts for $78 million that were based on inappropriate
                                                              7


justifications, including urgency and uniqueness. By the
time of the third contract, even the Commander, Defense
Fuel Supply Center, expressed disbelief regarding the
justification and approval for a sole-source contract. The
Commander, in a note on the justification and approval,
wrote, “I don’t believe this, but I signed it.” After
issuance of the audit report, the Defense Finance and
Accounting Service awarded a multiple award contract on a
competitive basis to three contractors and the hourly rates
for these services declined by about 40 percent from the
prior sole-source contract.

     During 1998, we reported that the Office of the              Report
Assistant to the Secretary of Defense (Nuclear and Chemical       No. 98-128
and Biological Defense Programs) did not comply with
applicable regulations, contract requirements, and conflict
of interest provisions in obtaining contract support
services. Specifically, Government facilities and
equipment were provided to a prime contractor and
subcontractor without contracting officer approval or
contract offsets to reflect reduced costs incurred for
contract performance; contractor and subcontractor
employees were directed to perform services normally
associated with prohibited personal service contracts; and
one contractor was authorized to perform tasks that
involved potential conflicts of interest. The Department
agreed to institute corrective actions.

     Another report concluded that the Defense Special             Report
Weapons Agency (now part of the Defense Threat Reduction           No. 98-149
Agency) acquired the services of members of an Advisory
Panel on Nuclear Weapons Effects through an omnibus
scientific and engineering technical analysis services
contract rather than through the Defense Science Board, an
approved Federal Advisory Committee. Six of the seven
members of the Advisory Panel were employees of contractors
who were likely to have future DoD contracts related to the
study area. The procurement of the services did not
adequately protect DoD from potential conflicts of
interest. The Department agreed to have full financial and
potential conflict of interests disclosures from any future
advisory panel members.

OTHER TRANSACTIONS

     Last year, I testified before the Subcommittee on
Acquisition and Technology, Committee on Armed Services,
                                                              8


about our work on “Other Transactions.” “Other
Transactions” were authorized to encourage commercial firms
to join with the Department on research and development
efforts. The “Other Transactions” are exempt from the
usual controls and oversight mechanisms set forth in
acquisition statutes and the Federal Acquisition
Regulation. “Other Transactions” are also exempt from
audit access for examination of contractor records by the
General Accounting Office and Defense Contract Audit
Agency.

     For 1990 through October 1999, we believe the
Department issued 205 research “Other Transactions,” valued
at $2.9 billion, and 97 prototypes “Other Transactions,”
valued at $2.1 billion. Research “Other Transactions” are
used for basic and applied research and prototype “Other
Transactions” are used for prototype projects related to
weapons and weapon systems. There are two types of “Other
Transactions” because different statutes at different times
authorized their use for research and prototypes.

     Last year, I reported on problems for 28 “Other              Report
Transactions” awarded by the Defense Advanced Research            No. 97-114
Projects Agency. We outlined the need to put funds
advanced to consortiums into an interest bearing account
until used; to monitor the actual cost of the work against
the funds paid; to ensure that cost sharing arrangements
were honored; and to standardize the audit clause. I can
report that guidance was issued to correct the problems
except for the audit clause issue. We agreed to wait on
guidance for the audit clause issue pending additional
audit work.

     Our recent review of 60 research and 17 prototype            Report
“Other Transactions,” valued at $1.2 billion, showed there        No. 98-191
were still problems in this area. We found that DoD
officials did not receive adequate expenditure reporting
needed to monitor “Other Transaction” efforts, did not
adjust milestone payments when needed, forfeited interest,
and did not receive final research reports. The underlying
causes were the lack of management guidance, and a lack of
quantifiable performance measures to assess costs and
benefits. The Department has issued additional guidance,
but establishing the performance measures has been
difficult for the Department.
                                                              9


     We have two audits ongoing on “Other Transactions.”
Both of these audits should identify issues that will be of
interest to this committee. The first is a joint effort
with the Defense Contract Audit Agency on how traditional
DoD contractors charge costs to “Other Transactions.” The
report will be released in draft to the Department shortly.
The second audit is on the two prototype “Other
Transactions,” valued at $1 billion, for the Evolved
Expendable Launch Vehicle (EELV). We just got started on
this review. In comparison to the two “Other Transactions”
for the EELV, all of the other 95 prototype “Other
Transactions” issued since 1994 are valued at $1.1 billion.

     As we reported last year, some continue to propose
expansion of the prototype “Other Transactions” authority
into the production phase. We continue to doubt the wisdom
of this proposal. Though designed to attract new
contractors to DoD, available data indicates their
participation is limited.

     Given the inapplicability of traditional controls to
“Other Transactions,” we believe that if this authority is
extended to billion dollar production runs of equipment,
additional scrutiny of pricing for sole-source items will
be needed to protect DoD and taxpayer interests. In these
cases, the Department should require access to cost or
pricing data, plus audit access for the Defense Contract
Audit Agency, in order to ensure fair prices.

TRACKING FUNDS NOT USED FOR HARDWARE AND SOFTWARE CONTRACTS
FOR MAJOR DEFENSE SYSTEMS

     A recent audit examined 10 major weapon systems that         Report
had FY 1997 funding of approximately $1.9 billion. Nine of        No. 99-012
the ten programs did not have cost-accounting systems
established to track and report internal DoD program costs
by functional categories such as systems engineering,
program management, logistics, departmental assessments,
test and evaluation, and acquisition of weapon systems
hardware and software. Without viable cost accounting
systems, it is difficult for program managers to identify
where and how to reduce life-cycle costs. Because of the
lack of cost-accounting systems, we used budget execution
reports to identify functional cost categories within the
various appropriations and detailed cost activities
associated with those cost categories. We found that an
average of 69 percent of the program dollars were used to
                                                            10


fund prime contractors for the development and acquisition
of weapon systems hardware and software and the remaining
31 percent was used for noncontract expenses. The
31 percent for noncontract expenses fell into
12 categories. One of the more interesting categories was
departmental assessments, which made up 4.96 percent.
Departmental assessments are commonly referred to as
“taxes” and the program funds were used to pay for the
costs for things such as small business innovative
research; Bosnian disaster relief; and a Presidential
request for anti-terrorism, counter-terrorism, and security
enforcement. We could not evaluate reasonableness or
compare the 12 cost categories among programs because no
one had ever collected the data before and there were no
baselines or benchmarks. The lack of a viable cost
accounting system for tracking weapon systems costs by
functional categories contributes to the risk in managing
weapon systems acquisitions.

ACQUIRING AUTOMATED INFORMATION SYSTEMS

     Acquiring automated information systems remains a high
risk area for the Department. The number of system
acquisition, migration, and modification projects is huge.
This poses a formidable management challenge, because the
DoD track record for automated system development has not
been good for many years. Projects have tended to overrun
budgets, slip schedules, evade data standardization and
interoperability requirements, and shortchange user needs.
The huge effort needed to develop an accurate inventory of
DoD information systems and their interfaces in order to
assess vulnerability to the year 2000 computing problem has
underscored the need to revamp the lax management controls
that led to the runaway proliferation of systems. Also,
recent audits have identified instances where the
management controls for vital system development projects
did not ensure adequate program definition and structure.

     For example, we looked at the acquisition of the            Report
Composite Health Care System (CHCS) II. CHCS II will             No. 99-068
provide world-wide access to computer based patient
records. Total program cost is estimated at $1.4 billion.
Over an 18-year period, the life-cycle cost estimate will
approximate $5.0 billion (FY 1998 then-year dollars). We
determined that CHCS II needed to undertake additional
actions to complete a project management system. A
structure linking financial accountability was needed to
                                                             11


improve the project manager’s ability to evaluate whether
program results deviate from the baseline for cost,
schedule, performance, and milestone exit criteria. Unlike
most large weapon systems program, you could not tell how
the program was doing because of the inability to track
status or baselines. In addition, the funding visibility
of the program was limited because the program office had
combined CHCS II funding with sustainment and modernization
funding for the CHCS I and other clinical business area
automated systems.

COMPLIANCE WITH THE BUY AMERICAN ACT AND THE BERRY
AMENDMENT

     In 1998, we conducted an audit of the procurement of         Report
military clothing and related items in response to a              No. 99-023
requirement in the National Defense Authorization Act for
FY 1998. The Buy American Act (41 U.S.C. 10a) and the
Berry Amendment (10 U.S.C. 2441 Note) require contracting
officers to determine whether items manufactured in the
United States or a qualifying country were available. The
audit found that contracting officers at 12 military
organizations improperly awarded 16 contracts for military
and civilian clothing items, valued at $1.4 million, that
were manufactured in China, Pakistan, and the Philippines.
Additionally, the Air Force, in a separate review,
identified 27 other improper procurements of Chinese-made
boots valued at $182,511. The noncompliance with the Buy
American Act and the Berry Amendment resulted in
43 potential violations of the Antideficiency Act. Each
potential violation of the Antideficiency Act requires a
separate investigation to determine if there was a
violation and assess accountability. Thus, each
investigation can result in more work than the original
contract requirement. We recommended that the Director,
Defense Procurement, issue guidance to emphasize the
requirement to incorporate and enforce the Buy American Act
and Berry Amendment provisions and clauses in solicitations
and contracts for clothing and related items. The Director
issued the policy guidance on March 2, 1999.

SUMMARY

     The Office of Inspector General remains supportive of
reasonable efforts to streamline and improve the
Department’s acquisition programs. In that regard, we are
committed to sharing with the Department and the Congress
                                                             12


the benefit of our experience in this very complex area as
new reform proposals are considered. We remain concerned
about suggestions to limit or repeal controls that have
been proven effective over time, such as the False Claims
Act, the Truth in Negotiations Act, the Cost Accounting
Standards, the statute that prohibits contractors from
charging unallowable costs, and the Defense Contract Audit
Agency. We believe that these controls have been critical
to maintaining the Government’s ability to adequately
protect its interests in the acquisition area.

     Many beneficial statutory reforms have occurred
already in the acquisition arena. The challenge now is to
encourage the Department to identify the underlying cause
of remaining problems and initiate appropriate corrective
actions. We stand ready to assist the Department and the
Congress to move forward and address the challenges in
acquisition in ways that will protect the interests of the
Department and, ultimately, the taxpayers.
